                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00886-210




   Combined Assessment Program 

           Review of the 

  VA New Jersey Health Care System 

      East Orange, New Jersey 





June 13, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CPR            cardiopulmonary resuscitation
                 CS             controlled substances
                 ED             emergency department
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA New Jersey Health Care System
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PD             position description
                 PT             physical therapy
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                       CAP Review of the VA New Jersey Health Care System, East Orange, NJ



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             8

  Coordination of Care – HPC ...................................................................................                  10

  Long-Term Home Oxygen Therapy ........................................................................                          12

  Nurse Staffing .........................................................................................................        14

  Preventable Pulmonary Embolism ..........................................................................                       15

  Construction Safety ................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              29

  F. Report Distribution .............................................................................................            30

  G. Endnotes ...........................................................................................................         31





VA OIG Office of Healthcare Inspections
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 11, 2013.

Review Results: The review covered eight activities.                           We    made     no
recommendations in the following activity:

   Construction Safety

The facility’s reported accomplishments were the hospice and palliative care memorial
tribute book, simulation and experiential education, and the Quiet Campaign.

Recommendations: We made recommendations in the following seven activities:
Quality Management: Revise the local observation bed policy to include all required
elements. Consistently scan the results of non-VA purchased diagnostic tests into
electronic health records. Ensure clinicians perform and document patient assessments
following blood product transfusions. Require that code evaluation sheets are
completed for all code episodes and that code sheets are scanned into the electronic
health records.

Environment of Care: Store clean and dirty items separately. Ensure sensitive patient
information is secured on computer screens in the emergency department. Terminally
clean medical equipment in the emergency department after patient discharge.
Properly store supplies and equipment in the East Orange physical therapy clinic.

Medication Management – Controlled Substances Inspections: Amend facility policy to
address that the Controlled Substances (CS) Coordinator position description or
functional statement must include CS inspection and coordination, to include that the
CS Coordinator must have complete understanding of CS policies and the Veterans
Health Administration inspection process, and to include requirements for new CS
inspector orientation and annual training thereafter. Ensure CS inspectors receive
annual updates and/or refresher training.

Coordination of Care – Hospice and Palliative Care: Ensure all non-hospice and
palliative care staff receive end-of-life training.

Long-Term Home Oxygen Therapy: Ensure the Chief of Staff reviews Home Respiratory
Care Program activities at least quarterly. Require contracts for oxygen delivery to
contain educational information on the hazards of smoking while oxygen is in use.
Re-evaluate home oxygen program patients for home oxygen therapy annually after the
first year. Ensure that home oxygen program patients deemed to be high risk have fire
risk assessments completed and that 3-month follow-up evaluations are completed for
all home oxygen program patients.


VA OIG Office of Healthcare Inspections                                                         i
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Nurse Staffing: Include all required members on unit 9A’s expert panel. Require that
the annual staffing plan reassessment process ensures that all required staff are facility
expert panel members.

Preventable Pulmonary Embolism: Initiate protected peer review for the identified
patient, and complete any recommended review actions.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–28, for the full
text of the Directors’ comments.) We consider recommendations 8, 9, and 10 closed.
We will follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, interviewed managers and employees, and reviewed clinical
and administrative records. The review covered the following eight activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Long-Term Home Oxygen Therapy

   	   Nurse Staffing

   	   Preventable Pulmonary Embolism

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
March 15, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA New Jersey Health Care System, East Orange, New Jersey,
Report No. 10-00470-172, June 15, 2010).



VA OIG Office of Healthcare Inspections                                                        1
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


During this review, we presented crime awareness briefings for 323 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
590 responded. We shared survey results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

HPC Memorial Tribute Book
The HPC team provides veterans with a copy of the book, One Who Served: A
Memorial Tribute to Your Veteran, a record of the veteran’s life and experiences. Staff
encourage veterans admitted to HPC to work with their family and friends to fill the
pages of the book. The book then serves as a memorial and tribute to the veteran and
a keepsake for family and friends.

Simulation and Experiential Education
To enhance patient care through staff education, the facility constructed two
contemporary and flexible full-scale inpatient and outpatient simulation rooms that
incorporate features of evidence-based design, patient-centered care principles, and
learning spaces. These rooms provide a staff education resource that enhances the
ability to simulate inpatient or outpatient environments. This experientially based
learning environment supports staff training in traditional and less common patient care
scenarios.

Quiet Campaign
The Quiet Campaign was implemented to reduce noise volume on an inpatient medical
unit. The campaign includes the use of sound monitors that provide visible noise
volume alerts, signage that includes photographs of facility staff, a quiet hour,
therapeutic music, and aromatherapy. Telephone rings were lowered, and door hinges
were padded to avoid slamming. These modifications have contributed to marked
improvement in patient satisfaction.




VA OIG Office of Healthcare Inspections                                                        2
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We interviewed senior managers and key QM employees, and we evaluated meeting minutes,
EHRs, and other relevant documents. The table below shows the areas reviewed for this topic.
The areas marked as NC needed improvement. Items that did not apply to this facility are
marked “NA.”

 NC                   Areas Reviewed                                           Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
 X     Local policy for the use of observation beds         The facility’s policy did not include that each
       complied with selected requirements.                  observation patient must have a focused goal
                                                             for the period of observation or that each
                                                             admission must have a limited severity of
                                                             illness. Additionally, the policy did not include
                                                             the process for determining the admitting
                                                             physician.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The CPR review policy and processes
       complied with requirements for reviews of
       episodes of care where resuscitation was
       attempted.



VA OIG Office of Healthcare Inspections                                                                      3
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


 NC            Areas Reviewed (continued)                                      Findings
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in       Twenty-nine EHRs of patients who had non-VA
       place for non-VA care documents, and the            purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                    Five test results were not scanned into the
                                                              EHRs.
 X     Use and review of blood/transfusions                Thirty-three EHRs of patients who received
       complied with selected requirements.                blood products reviewed:
                                                            There was no documentation in 12 EHRs
                                                              (36 percent) that the outcome was assessed.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility complied with any additional       Twelve months of CPR episodes of care
       elements required by VHA or local policy.       reviewed:
                                                        Evaluation sheets were not completed for 6 of
                                                          33 (18 percent) CPR codes as required by
                                                          local policy.
                                                        Five spot-checked EHRs did not contain
                                                          scanned code sheets as required by local
                                                          policy.

Recommendations

1. We recommended that the local observation bed policy be revised to include all required
elements.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.

3. We recommended that processes be strengthened to ensure that clinicians perform and
document patient assessments following blood product transfusions.




VA OIG Office of Healthcare Inspections                                                                     4
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


4. We recommended that processes be strengthened to ensure that code evaluation sheets
are completed for all code episodes and that code sheets are scanned into the EHRs.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements.2

At the East Orange campus, we inspected one medical/surgical unit, the acute MH unit, one
intensive care unit, the ED, the PT clinic, and the women’s health clinic. At the Lyons campus,
we inspected one acute MH unit, one CLC unit, and the PT and occupational therapy clinics.
Additionally, we reviewed relevant documents and interviewed key employees and managers.
The table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

 NC           Areas Reviewed for General EOC                                   Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       The facility had a policy that detailed cleaning
       of equipment between patients.
 X     Patient care areas were clean.                       In three of the six units/areas inspected, clean
                                                             and dirty items were not stored separately.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
 X     Sensitive patient information was protected,         In the ED, sensitive patient information on
       and patient privacy requirements were met.            computer screens was not blocked from
                                                             public view.
 X     The facility complied with any additional           Local policy on cleaning and disinfection of
       elements required by VHA, local policy, or          non-critical reusable medical equipment and
       other regulatory standards.                         patient care items reviewed:
                                                            ED staff did not consistently perform terminal
                                                             cleaning of intravenous pumps and poles and
                                                             bedrails after patient discharges.




VA OIG Office of Healthcare Inspections                                                                       6
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


 NC      Areas Reviewed for the Women’s Health                                 Findings
                             Clinic
       The Women Veterans Program Manager                       
       completed required annual EOC evaluations,
       and the facility tracked women’s health-related
       deficiencies to closure.
       Fire safety requirements were met.                       
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
        Areas Reviewed for Physical Medicine and
               Rehabilitation Therapy Clinics
       Fire safety requirements were met.                      
       Environmental safety requirements were met.             
 X     Infection prevention requirements were met.          In the East Orange PT clinic, new supplies
                                                             were stored inappropriately under a treatment
                                                             table, and dirty and clean equipment were not
                                                             stored separately.
       Medication safety and security requirements          
       were met.
       Patient privacy requirements were met.                   
       The facility complied with any additional            
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

5. We recommended that processes be strengthened to ensure that clean and dirty items are
stored separately.

6. We recommended that processes be strengthened to ensure that sensitive patient
information is secured on computer screens in the ED.

7. We recommended that processes be strengthened to ensure that medical equipment in the
ED is terminally cleaned after patient discharge.

8. We recommended that processes be strengthened to ensure that supplies and equipment
in the East Orange PT clinic are properly stored.




VA OIG Office of Healthcare Inspections                                                                    7
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and interviewed key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                           Findings
  X    Facility policy was consistent with VHA             Facility CS inspection policy reviewed. Policy
       requirements.                                       did not:
                                                            Address that the CS Coordinator PD or
                                                              functional statement must include CS
                                                              inspection and coordination.
                                                            Include that the CS Coordinator must have
                                                              complete understanding of CS policies and
                                                              the VHA inspection process.
                                                            Include requirements for new CS inspector
                                                              orientation and annual training thereafter.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator PD(s) or functional
       statement(s) included duties, and CS
       Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,             CS inspectors did not receive annual updates
       completed required certification and training,        and/or refresher training.
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     8
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Recommendations

9. We recommended that facility policy be amended to address that the CS Coordinator PD or
functional statement must include CS inspection and coordination, to include that the CS
Coordinator must have complete understanding of CS policies and the VHA inspection process,
and to include requirements for new CS inspector orientation and annual training thereafter.

10. We recommended that processes be strengthened to ensure that CS inspectors receive
annual updates and/or refresher training.




VA OIG Office of Healthcare Inspections                                                                    9
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we interviewed key employees. The table below shows the areas reviewed
for this topic. The area marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

NC                   Areas Reviewed                                           Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had             Of the 15 non-HPC staff, there was no
       end-of-life training.                                 evidence that 7 had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.


VA OIG Office of Healthcare Inspections                                                                   10
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Recommendation

11. We recommended that processes be strengthened to ensure that all non-HPC staff receive
end-of-life training.




VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Long-Term Home Oxygen Therapy
The purpose of this review was to determine whether the facility complied with requirements for
long-term home oxygen therapy in its mandated Home Respiratory Care Program.5

We reviewed relevant documents and 34 EHRs of patients enrolled in the home oxygen
program (including 9 patients deemed to be high risk), and we interviewed key employees. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                          Findings
       There was a local policy to reduce the fire
       hazards of smoking associated with oxygen
       treatment.
 X     The Chief of Staff reviewed Home Respiratory         We found no evidence that program activities
       Care Program activities at least quarterly.           were reviewed quarterly.
       The facility had established a home
       respiratory care team.
 X     Contracts for oxygen delivery contained all         One contract reviewed:
       required elements and were monitored                 Educational information on the hazards of
       quarterly.                                            smoking while oxygen is in use was not
                                                             incorporated in the contract.
 X     Home oxygen program patients had active              Eighteen (56 percent) of 32 EHRs contained
       orders/prescriptions for home oxygen and              no documentation of a re-evaluation after the
       were re-evaluated for home oxygen therapy             first year.
       annually after the first year.
       Patients identified as high risk received
       hazards education at least every 6 months
       after initial delivery.
       NC high-risk patients were identified and
       referred to a multidisciplinary clinical
       committee for review.
 X     The facility complied with any additional           Local policies reviewed:
       elements required by VHA or local policy.            Of the 9 patients identified as smokers, there
                                                             were a total of 26 initial evaluations and/or
                                                             re-evaluations for home oxygen. Eight of
                                                             these evaluations did not have a fire risk
                                                             assessment in accordance with local policy.
                                                            Twenty-seven (79 percent) of the 34 EHRs
                                                             did not have documentation of a 3-month
                                                             follow-up evaluation in accordance with local
                                                             policy.

Recommendations

12. We recommended that processes be strengthened to ensure that the Chief of Staff reviews
Home Respiratory Care Program activities at least quarterly.




VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


13. We recommended that processes be strengthened to ensure that contracts for oxygen
delivery contain educational information on the hazards of smoking while oxygen is in use.

14. We recommended that processes be strengthened to ensure that home oxygen program
patients are re-evaluated for home oxygen therapy annually after the first year.

15. We recommended that processes be strengthened to ensure that home oxygen program
patients deemed to be high risk have fire risk assessments completed and that 3-month
follow-up evaluations are completed for all home oxygen program patients.




VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two selected units
(acute care and long-term care).

We reviewed relevant documents and 14 training files, and we interviewed key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute care unit (East
Orange) 9A and CLC unit (Lyons) LNH 2B for 50 randomly selected days (holidays, weekdays,
and weekend days) between October 1, 2011, and September 30, 2012. The table below
shows the areas reviewed for this topic. The areas marked as NC needed improvement. Items
that did not apply to this facility are marked “NA.”
 NC                    Areas Reviewed                                            Findings
  X    The unit-based expert panels followed the            Unit 9A’s panel did not include any licensed
       required processes.                                   practical nurses.
 X     The facility expert panel followed the required      The facility panel did not include staff nurses
       processes and included all required members.          or other nursing staff providing direct patient
                                                             care, evening and night supervisory staff,
                                                             nurse managers from the various areas of the
                                                             facility, or the labor partner representative.
       Members of the expert panels completed the
       required training.
       The facility completed the required steps to
       develop a nurse staffing methodology by
       September 30, 2011.
       The selected units’ actual nursing hours per
       patient day met or exceeded the target
       nursing hours per patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

16. We recommended that unit 9A’s expert panel include all required members.

17. We recommended that the annual staffing plan reassessment process ensure that all
required staff are facility expert panel members.




VA OIG Office of Healthcare Inspections                                                                   14
                                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Preventable Pulmonary Embolism
The purpose of this review was to evaluate the care provided to patients who were treated at the
facility and developed potentially preventable pulmonary embolism.6

We reviewed relevant documents and 12 EHRs of patients with confirmed diagnoses of
pulmonary embolisma January 1–June 30, 2012. We also interviewed key employees. The
table below shows the areas reviewed for this topic. The area marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

    NC                  Areas Reviewed                                                Findings
     X   Patients with potentially preventable                      One patient was identified as having a
         pulmonary emboli received appropriate                       potentially preventable pulmonary embolism
         anticoagulation medication prior to the event.              because the patient had risk factors and had
                                                                     not been provided anticoagulation
                                                                     medication.
         No additional quality of care issues were
         identified with the patients’ care.
         The facility complied with any additional
         elements required by VHA or local
         policy/protocols.

Recommendation

18. We recommended that managers initiate protected peer review for the identified patient and
complete any recommended review actions.




a
 A sudden blockage in a lung artery usually caused by a blood clot that travels to the lung from a vein in the body, most
commonly in the legs.


VA OIG Office of Healthcare Inspections                                                                                     15
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the Ward 5 upgrade project. Additionally, we reviewed relevant documents and
10 training records (5 contractor records and 5 employee records), and we interviewed key
employees and managers. The table below shows the areas reviewed for this topic. Items that
did not apply to this facility are marked “NA.” The facility generally met requirements. We made
no recommendations.

 NC                    Areas Reviewed                                          Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.




VA OIG Office of Healthcare Inspections                                                                   16
                                          CAP Review of the VA New Jersey Health Care System, East Orange, NJ


 NC            Areas Reviewed (continued)                                      Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                   17
                                     CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                            Appendix A

                     Facility Profile (East Orange/561) FY 2012
Type of Organization                                                             Health care system
Complexity Level                                                                 1b-High complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $486
Number of:
    Unique Patients                                                             58,915
    Outpatient Visits                                                           715,544
    Unique Employeesb                                                           1,986
Type and Number of Operating Beds:
    Hospital                                                                    93
    CLC                                                                         245
    MH                                                                          248
Average Daily Census:
    Hospital                                                                    58.5
    CLC                                                                         214.1
    MH                                                                          213.9
Number of Community Based Outpatient Clinics                                     11
Location(s)/Station Number(s)                                                    Lyons/561A4
                                                                                 Brick/561BZ
                                                                                 Hamilton/561GA
                                                                                 Elizabeth/561GB
                                                                                 Hackensack/561GD
                                                                                 Jersey City/561GE
                                                                                 Piscataway/561GF
                                                                                 Newark/561GG
                                                                                 Morristown/561GH
                                                                                 Tinton Falls/561GI
                                                                                 Paterson/561GJ
VISN Number                                                                      3




b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                              18
                                     CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                            Appendix B

                             VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                       Inpatient Scores                               Outpatient Scores
                           FY 2012                                        FY 2012
                    Inpatient       Inpatient      Outpatient     Outpatient        Outpatient      Outpatient
                    Score           Score          Score          Score             Score           Score
                    Quarters 1–2    Quarters 3–4   Quarter 1      Quarter 2         Quarter 3       Quarter 4
    Facility        54.6            64.8           56.9           59.2              52.6            62.5
    VISN            60.2            62.9           58.6           57.9              58.2            59.0
    VHA             63.9            65.0           55.0           54.7              54.3            55.0



                           Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                   Mortality                                    Readmission
               Heart Attack        Heart           Pneumonia     Heart Attack     Heart           Pneumonia
                                   Failure                                        Failure
    Facility   **                  11.8            13.7          **               27.0            20.6
    U.S.
    National   15.5                11.6            12.0          19.7             24.7            18.5
    ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing.




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                          19
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                     Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           April 29, 2013

       From:           Director, VA New York/New Jersey Veterans Healthcare
                       Network (10N3)

       Subject: 	      CAP Review of the VA New Jersey Health Care System,
                       East Orange, NJ

       To:             Director, Baltimore Office of Healthcare Inspections (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I have reviewed the OIG Combined Assessment Program (CAP) Review
       for the VA New Jersey Health Care System. I concur with the responses
       submitted from the VANJHCS Director, Mr. Kenneth H. Mizrach.

       If you have any questions or require additional information, please contact
       Pam Wright, RN MSN, VISN3 QMO, at 718-741-4143.




       Michael A. Sabo, FACHE
       VISN 3 Network Director




VA OIG Office of Healthcare Inspections                                                       20
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


       Date: 	         April 24, 2013

       From: 	         Director, VA New Jersey Health Care System (561/00)

       Subject: 	      CAP Review of the VA New Jersey Health Care System,
                       East Orange, NJ

       To: 	           Director, VA New York/New Jersey Veterans Healthcare
                       Network (10N3)

       Thank you for the opportunity to review the draft report of the OIG
       Combined Assessment Program (CAP) Review for our VA New Jersey
       Health Care System. I have reviewed the document and concur with the
       recommendations noted.

       The VA New Jersey Health Care System has established corrective action
       plans with designated dates of completion, as detailed in the attached
       report. If additional information or assistance is needed, please do not
       hesitate to contact our Lead Accreditation Specialist, Pamela J Brooks
       RN-BC, at 973 676 1000, x1215.




       KENNETH H. MIZRACH
       Director, VANJHCS




VA OIG Office of Healthcare Inspections                                                       21
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the local observation bed policy be
revised to include all required elements.

Concur

Target date for completion: June 2013

Facility response: The current VANJHCS MCM # CC-07, entitled Observation Policy,
will be reviewed and revised to include all required elements in VHA Directive 2010-011.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: August 2013

Facility response: The VANJHCS acknowledges the importance of strengthening
appropriate quality control processes to ensure the timely scanning of non-VA
purchased diagnostic care in the electronic health record (EHR). A workgroup led by
the Business Office, Fee Basis Care will review, revise, and monitor these processes as
appropriate to ensure that the diagnostic test results of patients who receive non-VA
purchased care are scanned into the EHR. The results of monitoring will be reported
quarterly at the Medical Records Committee.

Recommendation 3. We recommended that processes be strengthened to ensure that
clinicians perform and document patient assessments following blood product
transfusions.

Concur

Target date for completion: August 2013

Facility response: The VANJHCS acknowledges the importance of accurately
performing and documenting patient assessments following blood product transfusions
in the electronic health record (EHR). The VANJHCS Transfusion Committee will
review and revise their current monitor to include evidence of clinician documentation of
patient assessments following blood product transfusions, as noted per VHA Directive.
The results of monitoring will be reported at Transfusion Committee, and quarterly to the
Medical Records Committee.


VA OIG Office of Healthcare Inspections                                                       22
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Recommendation 4. We recommended that processes be strengthened to ensure that
code evaluation sheets are completed for all code episodes and that code sheets are
scanned into the EHRs.

Concur

Target date for completion: August 2013

Facility response: The VANJHCS acknowledges the importance of strengthening
appropriate quality control processes to ensure that code evaluation sheets are
completed for all code episodes and the timely scanning of code sheets into the
electronic health record (EHR). A workgroup led by the Chairperson of the CPR
Committee will review, revise, and monitor these processes to ensure the timely
completion of all code episode evaluation and that the paper code sheets are scanned
into the EHR. The results of monitoring will be reported at CPR Committee and rolled
up quarterly to the Medical Records Committee.

Recommendation 5. We recommended that processes be strengthened to ensure that
clean and dirty items are stored separately.

Concur

Target date for completion: June 2013

Facility response: Unit and Clinic Managers removed all items inappropriately stored
and enforced the processes for the separation of clean and dirty storage with frontline
staff. IP&C Staff will inservice frontline staff to re-enforce this, and provide immediate
feedback to frontline staff during EOC Rounds to ensure sustained compliance.

Recommendation 6. We recommended that processes be strengthened to ensure that
sensitive patient information is secured on computer screens in the ED.

Concur

Target date for completion: May 2013

Facility response: The VANJHCS acknowledges the importance of protecting sensitive
patient information and patient privacy in the Emergency Department. The ED Chief will
work with the Information Security Officer to ensure sensitive patient information
displayed on computer screens are protected and blocked from public view in the ED by
the installation of privacy screens.

Recommendation 7. We recommended that processes be strengthened to ensure that
medical equipment in the ED is terminally cleaned after patient discharge.

Concur

Target date for completion: June 2013


VA OIG Office of Healthcare Inspections                                                       23
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Facility response: The VANJHCS acknowledges the importance of ensuring that
medical equipment in the ED is appropriately cleaned after patient discharge. The ED
Chief and Nurse Manager along with IP&C Staff will inservice the ED Staff and the
Housekeeping Staff on the current VANJHCS MCM # IC-31, entitled “Cleaning and
Disinfection of Non-Critical Reuseable Medical Equipment (RME) and Patient Care
items (PCI)” to strengthen and ensure compliance with VANJHCS local policy, and VHA
requirements. The Chief of Guest Relations Services will assign housekeeping staff to
the ED to ensure cleaning after patient discharge is completed. A cleaning schedule for
the RME and patient care items was initiated with the Housekeeping Staff and ED Staff.

Recommendation 8. We recommended that processes be strengthened to ensure that
supplies and equipment in the East Orange PT clinic are properly stored.

Concur

Target date for completion: April 2013 (completed)

Facility response: The VANJHCS acknowledges the importance of strengthening
processes to ensure that supplies and equipment in the East Orange PT Clinic are
stored properly. The Chief of PM&R Service has inserviced the PT staff on the current
VANJHCS MCM # IC-31, entitled “Cleaning and Disinfection of Non-Critical Reuseable
Medical Equipment (RME) and Patient Care items (PCI)” to strengthen and ensure
compliance with VANJHCS local policy, and VHA requirements. A cleaning schedule
for the PT area was initiated with the housekeeping staff and a cleaning schedule for
reuseable patient care items such as canes, crutches, exercise-bands was initiated with
the PT staff. Storage bins were set up to facilitate compliance with proper storage of
supplies and equipment. The entire PM&R Service is scheduled to move into their
newly renovated space in June 2013, which will provide proper storage and space to
ensure sustained compliance.

Recommendation 9. We recommended that facility policy be amended to address that
the CS Coordinator PD or functional statement must include CS inspection and
coordination, to include that the CS Coordinator must have complete understanding of
CS policies and VHA inspection process, and to include requirements for new CS
inspector orientation and annual training thereafter.

Concur

Target date for completion: March 2013 (completed)

Facility response: The current VANJHCS MCM # MM-16, entitled Controlled Substance
Inspection (CSI) Program, was reviewed and amended during the on-site OIG CAP
Review to address the CS Coordinator’s functional statement, including CS inspection
and coordination, and the CS Coordinator’s competencies noting an understanding of
CS Policies, VHA inspection process, and CS Inspector orientation & annual training.
OIG CAP Team Members reviewed these revisions while on-site and found the policy
compliant. This midcycle revision of VANJHCS MCM # MM-16 was published on the
VANJHCS webpage for 24 / 7 access by all employees on March 15, 2013.


VA OIG Office of Healthcare Inspections                                                       24
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Recommendation 10. We recommended that processes be strengthened to ensure
that CS inspectors receive annual updates and/or refresher training.

Concur

Target date for completion: March 2013 (completed)

Facility response: The VANJHCS acknowledges the importance of strengthening the
processes to ensure that CS Inspectors receive annual training and/or refresher
training. The current VANJHCS MCM # MM-16, entitled Controlled Substance
Inspection (CSI) Program, was reviewed and amended during the on-site OIG CAP
Review to include the requirement for CS Inspectors to receive annual updates and/or
refresher training. The CS Coordinator provided the OIG CAP Team Members with a
draft copy of a quarterly CSI Program Newsletter that will be utilized as a refresher
training to ensure CS Inspector annual training is completed. OIG CAP Team Members
reviewed this draft and found this to be compliant as a mechanism to update and
in-service CS Inspectors. The CS Coordinator finalized the CSI Program newsletter
and sent it to all CS Inspectors via outlook on March 14, 2013; the CS Coordinator will
continue this process as a quarterly CSI Program Newsletter.

Recommendation 11. We recommended that processes be strengthened to ensure
that all non-HPC staff receive end-of-life training.

Concur

Target date for completion: August 2013

Facility response: The VANJHCS acknowledges the importance of strengthening the
process to ensure that non-HPC staff received end-of-life training. The PCCT
Coordinator along with assistance from the HPC Provider, PCCT, PCS Education, and
other Services will ensure that all non-HPC staff receive end-of life training. The PCCT
Coordinator will utilize the TMS/HEN on-line module education, in order to reach the
non-HPC staff within the organization and will confirm training via documented TMS
course completion.

Recommendation 12. We recommended that processes be strengthened to ensure
that the Chief of Staff reviews Home Respiratory Care Program activities at least
quarterly.

Concur

Target date for completion: November 2013

Facility response: The VANJHCS and the Home Respiratory Care Program
acknowledge the importance of demonstrating that the VANJHCS Chief of Staff reviews
the programs activities quarterly. The VANJHCS Pulmonologist, along with the Home
Respiratory Care Team (HRCT), will ensure that the Chief of Staff (COS) is provided the
opportunity to review the activities of the Home Respiratory Care Program quarterly, via


VA OIG Office of Healthcare Inspections                                                       25
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


providing HRCT meeting minutes and regular reporting to the Executive Committee of
the Medical Staff (ECMS). The VANJHCS Pulmonologist provided the first report to the
COS and the ECMS on April 19, 2013; and this will continue quarterly.

Recommendation 13. We recommended that processes be strengthened to ensure
that contracts for oxygen delivery contain educational information on the hazards of
smoking while oxygen is in use.

Concur

Target date for completion: Pending Contract Approval (VISN)

Facility response: The VANJHCS acknowledges the importance of strengthening the
contracts for delivery of home oxygen therapy to ensure they contain educational
information on the hazards of smoking while on oxygen. VISN 3 Contracting Officer
along with the COR for Home Oxygen Therapy have revised the contracts for home
oxygen therapy to incorporate the requirement for providing educational information on
the hazards of smoking while oxygen is in use.

Recommendation 14. We recommended that processes be strengthened to ensure
that home oxygen program patients are re-evaluated for home oxygen therapy annually
after the first year.

Concur

Target date for completion: August 2013

Facility response: The VANJHCS acknowledges the importance of strengthening the
processes to ensure home oxygen program patients are re-evaluated annually after the
first year. The VANJHCS Pulmonologist along with the Home Respiratory Care Team
(HRCT) will ensure that all home oxygen patients have an annual re-evaluation for
home oxygen therapy completed. The HRCT is currently scheduling patients for their
annual evaluations. This will be tracked by the HRCT and reported at their meetings;
the VANJHCS Pulmonologist will roll this up with his quarterly COS reports.

Recommendation 15. We recommended that processes be strengthened to ensure
that home oxygen program patients deemed to be high risk have fire risk assessments
completed and that 3-month follow-up evaluations are completed for all home oxygen
program patients.

Concur

Target date for completion: September 2013

Facility response: The VANJHCS acknowledges the importance of strengthening the
fire risk assessments for home oxygen program patient who deemed to be high risk and
the importance of ensuring that 3-month follow-up are completed for all home oxygen
patients. The VANJHCS Pulmonologist along with the Home Respiratory Care Team


VA OIG Office of Healthcare Inspections                                                       26
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


(HRCT) will ensure that all high risk patients have a fire risk assessment completed.
This will be demonstrated by the completion of the consult entitled “Prosthetics Request
IFC Home O2 VISN3” for all initial, renewal, or change in Home Oxygen Prescription. In
addition the iMED agreement entitled “Smoking and Oxygen Hazard Awareness: Home
Safety Agreement” is also completed. The VANJHCS Pulmonologist along with the
Home Respiratory Care Team (HRCT) will ensure that all home oxygen program
patients have a 3-month follow-up evaluation completed. This will be monitored by the
VANJHCS Pulmonologist along with the Home Respiratory Care Team (HRCT) and will
be included in their HRCT meeting minutes which are provided to the COS quarterly.

Recommendation 16.            We recommended that unit 9A’s expert panel include all
required members.

Concur

Target date for completion: June 2013

Facility response: The VANJHCS acknowledges the importance of ensuring that our
unit-based expert panel include all the required members. The Associate Director of
Patient Care Services along with the Director of Clinical Services and Unit 9A Nurse
Manager are revising Unit 9A’s unit-based expert panel to include Licensed Practical
Nurses. The new LPN member will be a participating member starting with the next
nurse staff methodology expert panel meeting for Unit 9A on May 20, 2013.

Recommendation 17. We recommended that the annual staffing plan reassessment
process ensure that all required staff are facility expert panel members.

Concur

Target date for completion: July 2013

Facility response: The VANJHCS acknowledges the importance of ensuring that the
organization’s expert panel includes all the required members. The Associate Director
of Patient Care Services along with the Directors of Clinical Services are revising the
VANJHCS expert panel to ensure representation from staff nurses or other nursing staff
providing direct patient care, evening and night supervisory staff, nurse mangers from
various areas of the organization, and/or the labor partner representative. This
representation will start at the next nurse staff methodology expert panel meeting
scheduled for June 2013.

Recommendation 18. We recommended that managers initiate protected peer review
for the identified patient and complete any recommended review actions.

Concur

Target date for completion: July 2013




VA OIG Office of Healthcare Inspections                                                       27
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ


Facility response: The VANJHCS Chief of Staff and Director of Quality Management
acknowledge the importance of providing the appropriate care to patients who are at
risk of developing preventable pulmonary embolism. This was sent for a protected peer
review of the care provided to the patient.




VA OIG Office of Healthcare Inspections                                                       28
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Contributors            Terri Julian, Ph.D., Team Leader
                        Donald Braman, RN
                        Margie Chapin, RT, JD
                        Jennifer Christensen, DPM
                        Lin Clegg, PhD
                        Zhana Johnson, CPA, CFE
                        Nelson Miranda, LCSW
                        Melanie Oppat, MEd, LDN
                        Joanne Wasko, LCSW
                        Sonia Whig, MS, LDN
                        Jarvis Yu, MS
                        Cynthia Gallegos, Program Support Assistant
                        Christopher Algieri, Office of Investigations
                        Jeffrey Hughes, Office of Investigations
                        Gerard Poto, Office of Investigations
                        Jenny Walenta, Office of Investigations




VA OIG Office of Healthcare Inspections                                                       29
                              CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA New York/New Jersey Veterans Healthcare Network (10N3)
Director, VA New Jersey Health Care System (561/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Frank R. Lautenberg, Robert Menéndez
U.S. House of Representatives: Rodney Frelinghuysen; Scott Garrett; Leonard Lance;
 Frank Pallone, Jr.; Bill Pascrell, Jr.; Donald Payne, Jr.; Jon Runyan; Albio Sires;
 Chris Smith


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       30
                                      CAP Review of the VA New Jersey Health Care System, East Orange, NJ
                                                                                             Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Directive 2008-007, Resident Assessment Instrument (RAI) Minimum Data Set (MDS), February 4, 2008;
    VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VA National Center for Patient Safety, “Ceiling mounted patient lift installations,” Patient Safety Alert 10-07,
    March 22, 2010.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Material Management.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
   References used for this topic were:
	 VHA Directive 2006-021, Reducing the Fire Hazard of Smoking When Oxygen Treatment is Expected,
    May 1, 2006.
	 VHA Handbook 1173.13, Home Respiratory Care Program, November 1, 2000.
6
   The reference used for this topic was:
	 VHA Office of Analytics and Business Intelligence, External Peer Review Technical Manual, FY2012 quarter 4,
    June 15, 2012, p. 80–98. 
     



VA OIG Office of Healthcare Inspections                                                                         31
                                      CAP Review of the VA New Jersey Health Care System, East Orange, NJ



7
    References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
    Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
    standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        32
